CERTIFICATE OF SERVICE
No. 21-118
In the Supreme Court of the United States
APPLE INC.,
Petitioner,
v.
OPTIS CELLULAR TECHNOLOGY, LLC, OPTIS WIRELESS TECHNOLOGY, LLC, AND
UNWIRED PLANET INTERNATIONAL LIMITED,
Respondents.

I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 25th day of August, 2021, I caused three booklet copies of the Brief of
Jeremy C. Doerre as Amicus Curiae in Support of Neither Party to be served by thirdparty commercial carrier (FedEx) for delivery within 3 calendar days, and an
electronic copy to be served by email, on the following counsel for the parties:
Catherine Mary Agnes Carroll
Counsel of Record
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
catherine.carroll@wilmerhale.com
Counsel for Petitioner
Jason Sheasby
Hong Annita Zhong
Irell & Manella LLP
1800 Avenue of the Stars
Los Angeles, CA 90067
jsheasby@irell.com
hzhong@irell.com
Counsel for Respondents

Certificate of Service, p. 2

Brian H. Fletcher
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for United States
I further certify that all parties required to be served have been served.
On April 15, 2020, this Court issued an Order indicating that “with respect to
every document filed in a case prior to a ruling on a petition for a writ of certiorari or
petition for an extraordinary writ, or a decision to set an appeal for argument, a single
paper copy of the document, formatted on 8½ x 11 inch paper, may be filed,” and that
“[t]he document may be formatted under the standards set forth in Rule 33.2, or
under the standards set forth in Rule 33.1 but printed on 8½ x 11 inch paper.”
On July 19, 2021, this Court issued a new Order indicating that “the
requirement of Rule 33.1 that 40 copies of documents be submitted in booklet format
will go back into effect as to covered documents filed on or after September 1, 2021,”
and “[t]he authorization to file a single copy of certain documents on 8½ x 11 inch
paper, as set forth in the Court’s April 15, 2020 order, will remain in effect only as to
documents filed before September 1, 2021.”
I also certify that on this 25th day of August, 2021, I caused one copy of this
brief formatted under the standards set forth in Rule 33.1 but printed on 8½ x 11 inch
paper to be sent via a third-party commercial carrier (FedEx) for delivery to the Clerk
of this Court within 3 calendar days.

Certificate of Service, p. 3

In addition, this brief has been submitted electronically through the Court’s
electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 25, 2021
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

